=
I

OCKLE

2311 Douglas Street NF L B f E-Mail Address:
Omaha, Nebraska 68102-1214 egal ES € . : contact@cocklelegalbriefs.com
'¢
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

JACK DARRELL HEARN; DONNIE LEE MILLER:
JAMES WARWICK JONES,
Petitioners,
vs.

STEVEN McCRAW, in his Official Capacity as
Director of the Texas Department of Public Safety;
and, SHEILA VASQUEZ, in her Official Capacity

as Manager of the Texas Department of

Public Safety-Sex Offender Registration Bureau,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3911 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of July, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

Kepte. 0. last Oudeww-h, Oh ly

Affiant 41103

ft GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
My Comm. Exp. September 5, 2023

        

Notary Public
